                                                              O FFICE OF A UDIT S ERVICES , R EGION II
April 16, 2012                                                 J ACOB K. J AVITS F EDERAL B UILDING
                                                                     26 F EDERAL P LAZA , R OOM 3900
                                                                              N EW Y ORK, NY 10278
Report Number: A-02-11-01009

Ms. Isuanet Castillo
Operational Executive Director
St. Luke’s Episcopal Church Home Care Program
Edificio A Piso 4 #917
Avenida Tito Castro
Ponce, PR 00732

Dear Ms. Castillo:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled St. Luke’s Episcopal Church Home Care Program-Juana
Diaz Properly Claimed Medicare Reimbursement for Home Health Services. We will forward a
copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-11-01009 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services

Enclosure

HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health and Human Services
             OFFICE OF

        INSPECTOR GENERAL





 ST. LUKE’S EPISCOPAL CHURCH 

HOME CARE PROGRAM-JUANA DIAZ

      PROPERLY CLAIMED

 MEDICARE REIMBURSEMENT FOR

    HOME HEALTH SERVICES




                        Daniel R. Levinson

                         Inspector General


                            April 2012

                          A-02-11-01009

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                       INTRODUCTION


BACKGROUND

Medicare Program

Title XVIII of the Social Security Act (the Act), as amended, established Medicare, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Under Part A of the Medicare program, beneficiaries are
eligible to receive certain medical services at home. Such services include skilled nursing care,
physical or occupational therapy, and home health aide services.

St. Luke’s Episcopal Church Home Care Program-Juana Diaz

St. Luke’s Episcopal Church Home Care Program is a private nonprofit organization that
operates 14 facilities across Puerto Rico, including a facility in Juana Diaz, Puerto Rico that
provides home health services throughout Juana Diaz and surrounding municipalities. The
facility does business as St. Luke’s Home Health Agency-Juana Diaz (Juana Diaz). Juana Diaz’s
claims are processed and paid by National Government Services (NGS), the Medicare
administrative contractor. For the period January 1, 2009, through June 30, 2010, NGS paid
home health claims submitted by Juana Diaz, totaling $2,014,052.

Federal Requirements

Pursuant to 42 CFR § 409, to qualify for payment under Medicare, health services provided to a
beneficiary in the home must be administered in accordance with a plan of care. Moreover, the
plan of care must specify the type and frequency of services to be provided. Finally, the plan of
care must be established, signed, and dated by a physician.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Juana Diaz claimed Medicare reimbursement for home
health services in accordance with Federal requirements.

Scope

We reviewed claims for home health services provided by Juana Diaz during the period January
1, 2009, through June 30, 2010. We did not perform an overall assessment of Juana Diaz’s
internal control structure. Rather, we reviewed only the internal controls that pertained directly
to our objective.




                                                 1

We conducted fieldwork at Juana Diaz’s and St. Luke’s Episcopal Church Home Care Program’s
offices in Ponce, Puerto Rico, and at physicians’ offices and beneficiary residences throughout
Puerto Rico from March through October 2011.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws and regulations;

   •	 obtained from the CMS National Claims History file a sampling frame of 1,250 Medicare
      Part A home health claims, totaling $2,014,052, paid to Juana Diaz during the period
      January 1, 2009, through June 30, 2010;

   •	 selected a simple random sample of 100 claims from the sampling frame and for each
      claim:

           o	 obtained and reviewed the plan of care and supporting documentation from Juana
              Diaz,

           o	 interviewed the physician that ordered the home health services,

           o	 interviewed the beneficiary that received the home health services, and

           o	 determined whether the claim complied with Medicare requirements; and

   •	 discussed our results with Juana Diaz officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Juana Diaz claimed Medicare reimbursement for home health services in accordance with
Federal requirements. As a result, this report contains no recommendations.




                                               2

